       Management Letter 

    Related to the Audit of the 

 Broadcasting Board of Governors 

2012 and 2011 Financial Statements 



    AUD-FM-IB-13-13, February 2013




          Clarke Leiper, PLLC
       Certified Public Accountants
          6265 Franconia Road
       Alexandria, Virginia 22310
                                                     November 16, 2012

To the Chief Financial Officer
Broadcasting Board of Governors:
We (Clarke Leiper, PLLC) have audited the consolidated financial statements of the
Broadcasting Board of Governors (BBG) as of and for the years ended September 30, 2012 and
2011, and have issued our report thereon dated November 16, 2012 (Independent Auditor’s
Report on the Broadcasting Board of Governors 2012 and 2011 Financial Statements, AUD-
FM-IB-13-12, Nov. 2012). In planning and performing our audit of the BBG financial
statements, we considered BBG’s internal control over financial reporting and compliance to
determine our auditing procedures for the purpose of expressing an opinion on the financial
statements and not to provide assurance on internal control. Accordingly, we do not express an
opinion on the effectiveness of internal control related to financial reporting and compliance.
We have not considered internal control since the date of our report.
During our audit, we noted certain matters involving internal control over financial reporting and
compliance that we considered to be significant deficiencies under the standards established by
the American Institute of Certified Public Accountants. We reported those deficiencies in the
report referenced.
Our audit procedures were designed primarily to enable us to form an opinion on the financial
statements and therefore may not identify all internal control weaknesses that may exist.
However, we would like to take this opportunity to use the knowledge we gained during the
audit of BBG to provide comments and suggestions that we hope will be useful.
Although not considered to be significant deficiencies, we noted certain matters involving
internal control and other operational matters that are presented in Appendix A for your
consideration. These observations are intended to improve BBG’s internal control or result in
other operating efficiencies.

This letter is intended solely for the information and use of BBG officials and the Office of
Inspector General and is not intended to be, and should not be, used by anyone other than these
specified parties.

Comments by BBG management on this report are presented as Appendix B.

Very truly yours,



Clarke Leiper, PLLC
                                                                                       Appendix A


                               Management Letter Related to the 

                         Audit of the Broadcasting Board of Governors 

                             2012 and 2011 Financial Statements 


                                 Observations and Conclusions


1. Personal Services Contractors Employment Taxes

During FY 2012, the Internal Revenue Service (IRS) was conducting an examination of the
Broadcasting Board of Governors (BBG) Employment Tax Returns to determine whether some
or all of BBG’s independent contractors should be classified as employees. If considered
employees for tax purposes, BBG would be liable for employment taxes. As of September 30,
2012, the IRS was in the process of reviewing the working relationships between BBG and
approximately 800 contractors.

IRS Publication 15-A, “Employer’s Supplemental Tax Guide,” states the following:

       Under common-law rules, anyone who performs services for you is your
       employee if you have the right to control what will be done and how it will be
       done. This is so even when you give the employee freedom of action. What
       matters is that you have the right to control the details of how the services are
       performed.

       If you have an employer-employee relationship, it makes no difference how it is
       labeled. The substance of the relationship, not the label, governs the worker’s
       status. It does not matter whether the individual is employed full time or part
       time.

The publication further states, “If you classify an employee as an independent contractor and you
have no reasonable basis for doing so, you are liable for employment taxes for that worker . . . .”

BBG was unaware that certain independent contractors may be considered employees or that
BBG may have the responsibility for withholding taxes for these contractors. Pending the final
results of the IRS examination, BBG may have a liability to the IRS for unpaid employment
taxes. As of September 30, 2012, the IRS had not completed its examination and a potential
liability had not been determined. BBG did not have sufficient information to estimate the
potential liability.

We recommend that the Broadcasting Board of Governors (BBG) take action to address any
recommendations received from the Internal Revenue Service. Additionally, if the Internal
Revenue Service determines that an employer-employee relationship exists between BBG and the
contractors, we recommend that BBG develop policies and procedures to ensure that it
appropriately implements all tax requirements for contractors, including documenting BBG’s
working relationship with its contractors.



                                                 1

                                                                                                 Appendix A


2. American Payroll – Time and Attendance

We performed tests of the controls over BBG’s time and attendance (T&A) approval and
processing procedures related to its American payroll. Testing results indicated that 13 of the 45
timesheet records sampled did not contain evidence of approval by either a supervisor or
timekeeper.

BBG’s policy regarding the approval of T&A reports, as presented in the Broadcasting
Administrative Manual, requires that all T&A reports and other supporting documents be
reviewed and approved by an authorized supervisor. The approval must be indicated either by
handwritten signature or an approved system that provides for an automated signature.
Automated approval must be made by entering designated codes into an automated system with
appropriate safeguards to prevent unauthorized entry.

BBG officials stated that the exceptions identified occurred because, in the absence of the
designated timekeepers, backup timekeepers did not enforce the required procedures.

A weak control environment over T&A records increases the potential for fraud and employee
abuse. Without adequate enforcement of proper T&A approval by responsible personnel, the
potential for employees to be compensated for hours not worked or to receive unearned benefits
increases.

We recommend that the Broadcasting Board of Governors strengthen its controls over time and
attendance reporting by conducting timekeeping refresher training for all personnel responsible
for approving timekeeping records (that is, timekeepers, backup timekeepers, and supervisors) to
ensure that approvals are documented according to the internal control procedures detailed in
the Broadcasting Administrative Manual.

3. Information Technology Security

BBG’s information technology (IT) internal control structure for general support systems was
not adequate. The Department of State and BBG’s Office of Inspector General (OIG) annually
performs an evaluation of the information security program’s compliance as required by the
Federal Information Security Management Act of 2002 (FISMA).1 Some of the concerns that
OIG reported in the FISMA report related to general system controls that could impact the
financial statements. Specific concerns are as follows:

          BBG did not complete the development of procedures and guidance that govern routine
           and critical configuration management processes.
          BBG’s user account management controls did not ensure that access was provided to
           authorized personnel only; for instance, of 3,551 “active” user accounts in Active
           Directory:
               o Ninety-three user accounts were not used for more than 90 days.
               o Thirty-one user accounts did not require the use of a password.
               o The passwords for 411 user accounts had not been changed for over 90 days.
1
    Audit of the Broadcasting Board of Governors Information Security Program (AUD-IT-IB-13-04, Nov. 2012).

                                                        2

                                                                                     Appendix A


   	 BBG had not developed sanctions for employees and contractors who did not complete
      the annual security awareness training course.
   	 BBG’s Plan of Action and Milestones did not consistently provide sufficient detail, such
      as the resources required to address the security weaknesses, milestones used to measure
      progress toward completion, and changes to milestones for corrective actions that were
      not completed or past due.
   	 BBG did not ensure that remote access was granted only to computers that had 

      implemented proper safeguards. 


We also assessed IT general-system controls at the Voice of America (VOA) and the Office of
Cuba Broadcasting (OCB). Our assessment supported the findings reported in OIG’s FISMA
report. Specifically, we found the following:

   	 VOA could not provide a current network diagram that identified key devices or
      configuration settings.
    OCB did not conduct annual cyber security awareness training for its users.
    OCB did not have a process to identify separated employees for the purpose of disabling
      user accounts. OCB utilizes generic usernames and passwords for network workstations
      in common areas, enabling multiple users to log in with the same username and
      password.

National Institute of Standards and Technology (NIST) Special Publication (SP) 800-53,
Revision 3, Recommended Security Controls for Federal Information Systems and
Organizations, requires that an organization develop, document, and maintain an inventory of
information system components that accurately reflects the current information system; is
consistent with the authorization boundary of the information system; and is available for review
and audit.

The NIST standard further requires that an organization establish usage restrictions and
implementation guidance for each allowed remote access method and develop a plan of action
and milestones for the information system to document the organization’s planned remedial
actions to correct weaknesses or deficiencies noted during the assessment of the security controls
and to reduce or eliminate known vulnerabilities in the system.

The NIST standard also requires that an organization facilitate the implementation of security
awareness and training policies and associated security awareness and training and develop and
disseminate an organization-wide information security program plan that does the following:

   	 Provides an overview of the requirements for the security program and a description of
      the security program management controls and common controls in place or planned for
      meeting those requirements.
   	 Provides sufficient information about the program management controls and common
      controls (including specification of parameters for any assignment and selection
      operations either explicitly or by reference) to enable an implementation that is
      unambiguously compliant with the intent of the plan and a determination of the risk to be
      incurred if the plan is implemented as intended.

                                                3

                                                                                       Appendix A


   	 Is approved by a senior official with responsibility and accountability for the risk being
      incurred to organizational operations (including mission, functions, image, and
      reputation), organizational assets, individuals, other organizations, and the Nation.

In addition, the NIST standard requires that an organization manage its information system
accounts, including the following:

   	 Identifying account types (that is, individual, group, system, application,
      guest/anonymous, and temporary).
    Establishing conditions for group membership.
    Identifying authorized users of the information system and specifying access privileges.
    Requiring appropriate approvals for requests to establish accounts.
    Establishing, activating, modifying, disabling, and removing accounts.
    Specifically authorizing and monitoring the use of guest/anonymous and temporary
      accounts.
   	 Notifying account managers when temporary accounts are no longer required and when
      information system users are terminated or transferred or when information system,
      usage, or need-to-know/need-to-share changes.
   	 Deactivating (i) temporary accounts that are no longer required and (ii) accounts of
      terminated or transferred users.
   	 Granting access to the system based on (i) a valid access authorization, (ii) intended
      system usage, and (iii) other attributes as required by the organization or associated
      missions/business functions.

Further, the NIST standard requires an organization to allow the use of group authenticators only
in conjunction with an individual/unique authenticator and requires individuals to be
authenticated with an individual authenticator prior to using a group authenticator.

In general, we and OIG found that BBG had not implemented effective standards, policies,
processes, and procedures over its information security program. Moreover, OCB was not
required to comply with VOA IT requirements, but it had not implemented its own IT security
controls. OIG’s FISMA report includes detailed recommendations for BBG to implement in
order to address the deficiencies noted.

Poor controls over IT security can affect the integrity of financial reporting applications, which
increases the risk that sensitive information could be accessed by unauthorized individuals or
that financial transactions could be altered either accidentally or intentionally.

We recommend that the Broadcasting Board of Governors implement recommendations included
in the Office of Inspector General’s Federal Information Security Management Act report for FY
2012.

4.	 Reconciliation of Transactions Recorded in Suspense Accounts

A suspense account is a temporary account used by agencies to record transactions with
discrepancies until a determination is made on the proper disposition of the transaction. As of

                                                 4

                                                                                        Appendix A


September 30, 2012, BBG had a total of negative $396,857 recorded in suspense account F3875.
Over 75 percent of that amount was over 60 days old and related to transactions from FY 2011
and earlier.

The Treasury Financial Manual, Volume I, Bulletin No. 2011-06, “Reporting Suspense Account
Activity Using F3875 and F3885 and Using Default Accounts F3500 and F3502 as a
Governmentwide Accounting (GWA) Reporter,” requires the CFO to “certify the balances in
suspense accounts F3875 and F3885” to the Department of the Treasury “annually, at yearend.”
The agency must also certify that the balances do not include any items or transactions more than
60 days old. If there are transactions more than 60 days old, the agency “must clearly explain the
reason in the annual electronic certification.”

BBG officials stated they were unable to reconcile and clear suspense account balances in a
timely manner because of resource limitations. Specifically, BBG officials stated that BBG had
numerous unfilled vacancies in its Division of Financial Operations.

Failure to implement timely and effective suspense account reconciliation procedures could
affect BBG’s ability to effectively monitor budget execution and accurately measure the full cost
of its programs.

We recommend that the Broadcasting Board of Governors temporarily focus resources on
clearing suspense account transactions that are more than 60 days old, as required by the U.S.
Department of the Treasury.

5. Financial Reporting Process

Although BBG complied with the Office of Management and Budget’s (OMB) deadline to
submit a draft Performance and Accountability Report (PAR) by November 1, 2012, BBG’s
financial reporting process was insufficient to prepare the final PAR in a sufficient or timely
manner. After we noted deficiencies with financial statement information included in the PAR,
such as unreconciled balances and the use of an incorrect format for the Statement of Budgetary
Resources, BBG had to correct the financial data in multiple subsequent revisions to the financial
statements.

OMB Circular A-123, Management’s Responsibility for Internal Control, requires agencies to
have controls in place to ensure accurate financial reporting. Specifically, the circular requires
agency management to establish and maintain internal controls to achieve the objectives of
effective and efficient operations, reliable financial reporting, and compliance with applicable
laws and regulations.

The Government Accountability Office’s Standards for Internal Control in the Federal
Government states financial information is needed for both external and internal uses. The
agency is required to develop financial statements for periodic external reporting and, on a day-
to-day basis, to make operating decisions, monitor performance, and allocate resources.




                                                 5

                                                                                       Appendix A


BBG did not have adequate processes or controls in place to support the preparation of the final
financial statements to successfully meet year-end reporting deadlines. BBG had unfilled
vacancies for key positions within the Office of the Chief Financial Officer. BBG’s financial
statement compilation requires experienced and well-trained staff because of the significant
number of manual entries and adjustments using Excel spreadsheets to ultimately populate the
balances within the financial statements.

The labor-intensive process was time-consuming and increased the likelihood of errors and
omissions within the financial statements and left little time for management quality control
procedures. Furthermore, manual adjustments are prone to error and require an increased
measure of internal control and review from management, making the financial reporting process
less efficient. Because of financial reporting process issues, the end of fieldwork for the
financial statement audit had to be postponed from November 1, 2012, until November 13, 2012.
Although we were able to complete the audit opinion by the mandated deadline, the issues with
financial reporting delayed the issuance of the audit opinion past agreed-upon deadlines.

We recommend that the Broadcasting Board of Governors implement processes and controls,
including training for employees, to improve the timeliness and accuracy of its financial
reporting process.

6. Contingent Liabilities

As of September 30, 2012, BBG had made $3.8 million in settlement payments resulting from
judgments against BBG. However, BBG had not reduced its contingent liability balance by the
amount of the payments.

Statement of Federal Financial Accounting Standards No. 5, Accounting for Liabilities of the
Federal Government, states that contingencies “should be recognized as a liability when a past
transaction or event has occurred, a future outflow or other sacrifice of resources is probable, and
the related future outflow or sacrifice of resources is measurable.” Accordingly, the outflow or
sacrifice of BBG’s resources should be recognized as payments to reduce the liability.

BBG was required to deposit funds into claimants’ Thrift Savings Plan (TSP) accounts. Because
the Judgment Fund cannot make deposits directly into TSP, BBG disbursed funds to the TSP
accounts and requested reimbursement from the Judgment Fund. BBG’s policy is to record the
payments to TSP as an advance. BBG does not reduce the contingent liability account until
BBG is reimbursed from the Judgment Fund. As of September 30, 2012, BBG had not been
reimbursed by the Judgment Fund for $3.8 million in funds transferred to TSP. Accordingly,
BBG’s contingent liabilities were overstated by $3.8 million.

We recommend that the Broadcasting Board of Governors (BBG) revise its procedures related to
the posting of transactions related to contingent liabilities. BBG should reduce its liability once
payments are made into the Thrift Savings Plan relief accounts and establish an accounts
receivable for pending reimbursements from the Judgment Fund.




                                                 6

                                                                                               Appendix A


7. Statement of Net Cost – Indirect Cost Allocation

BBG did not allocate indirect costs to its major programs based on current year data and
activities. BBG allocated indirect costs based on ratios that were intended to equitably distribute
costs to benefiting programs. For example, certain administrative costs were distributed on the
basis of the number of staff, while engineering costs were distributed based on the number of
transmission hours. Although we determined BBG’s indirect cost allocation methodology to be
appropriate, the underlying data used to calculate the ratios was based on information and
activities from FY 2010.

Statement of Federal Financial Accounting Standards No. 4, Managerial Cost Accounting
Standards and Concepts states: “Each reporting entity should accumulate and report the cost of
its activities on a regular basis for management information purposes. Cost information is
essential to effective financial management and should play an important role in federal financial
reporting. Managerial cost accounting processes are the means of providing cost information in
an efficient and reliable manner on a continuing basis.”

The standard further states:

        To perform managerial cost accounting on a “regular basis” means that entities
        should establish procedures to accumulate and report costs continuously,
        routinely, and consistently for management information purposes. Consistent
        and regular cost accounting is needed to meet the second objective of federal
        financial reporting which states information should be provided to help the user
        determine the costs of providing specific programs and activities and the
        composition of, and changes in those costs.

BBG policies and procedures do not require annual updates to the ratios used in allocating
indirect costs. At the beginning of each fiscal year, the Chief Financial Officer reviews the
allocations to determine whether they remain applicable to the current year based on anticipated
activities. Although the total net cost presented in BBG’s FY 2012 Statement of Net Cost was
fairly stated, the totals related to individual programs did not accurately represent the full cost of
the programs.

We recommend that the Broadcasting Board of Governors calculate indirect cost allocation
ratios based on current year operations.

                             Prior Year Management Letter Comments

During the audit of BBG’s FY 2011 financial statements, we identified matters that we reported
in a management letter.2 As a result of additional work performed during the audit of the FY
2012 financial statements, we did not include some of the prior observations in the current
management letter. Some of the observations identified during the FY 2011 audit remain open.
The statuses of the FY 2011 findings are presented in Table 1.

2
 Management Letter Related to the Audit of the Broadcasting Board of Governors 2011 and 2010 Financial
Statements (AUD/IB-12-08, Feb. 2012).

                                                      7

                                                                                     Appendix A



Table 1. Statuses of Observations From the FY 2011 Management Letter

 Observation                                                   FY 2012
                           FY 2011 Observation                                  Comment
  Number                                                        Status

1. Information   The annual Federal Information Security        Open     See observation 3.
    Security     Management Act report stated that
                 BBG did not fully comply with some
                 statutory provisions and implementing
                 regulations.


2. Fund          Unreconciled differences were not being       Closed    BBG implemented
   Balance       cleared in a timely manner.                             procedures to reconcile
   with                                                                  all differences within 2
   Treasury                                                              months of occurrence.


3. Accounts      Qualifying debts were not referred to the     Closed    No instances of
   Receivable    Treasury Offset Program.                                noncompliance with the
                                                                         Debt Collection
                                                                         Improvement Act of 1996
                                                                         were identified during the
                                                                         audit.


4. Non-          BBG did not have a sufficient process to       Open     Reported as a significant
  Personnel      ensure that all costs were recorded in the              deficiency in the audit
  Expenses       correct period or properly accrued at year-             report.
  and            end.
  Accounts
  Payable
  Accrual


5. Accounts      Overseas accounts payable transactions        Closed    The impact of this finding
  Payable        were not recorded to the correct account.               would not be material to
                                                                         the financial statements.




                                                    8

                                                                                                       Appendix B




                                                                                            50-;1...




                                                                                        •
Broaticasling Board ofGovemoa                                                            ', 7" , '.    <

INTERl~A TIOKAL B ROADCASTING              BUREAU
                                                                                           .
                                                                         JAN 3 0 2013

Mr. Harold W. Geisel
Deputy Inspector General
Office of Inspector General
Department of State


Dear Mr. Geisel:

This is in response to your request for comments on the draft management letter related to the
audit of the Broadcasting Board of Governors' 2012 and 20ll financial statements. We have
reviewed the observations and conclusiolls of the independent contractor, Clarke Leiper, PLLC,
and in the enclosure provide responses to each of the issues identified by the auditors.

I assure you that we take the recommendations seriously and will monitor the progress made to
address each recommendation.

Thank you for the opportunity to respond. If you have any questions, please feel free to contact
                                 (b)(2)(b)(6)
Ms. Barbara Tripp at (202) 203                or Ms. Kelu Chao, Director, lEB Office or Performance
                   (b)(2)(b)(6)
Review at (202) 203            .

                                             Si~rely,




Enclosure: As Stated




                                                           Washingl<l". DC 20237




                                                 9

                                                                                                       Appendix B




                                                                                        Enc:losure

                          Broadcasting Board or Governors Response
                                Audit of Financial Statements
                                September 30, lOll and 2011



                    BBG Responses to the Audit Observations and Conclusions


1. Personal Services Contractors Employment Taxes (new)

     Audit Recommendation: Clarke Leiper recommends that the Broadcasting Board of
     Governor.f (BBG) take action to address any recommendations receivedfrom the Internal
     Revenue Service. Addi/iorw.lly, if the Internal RevenlU Service detennines thaI an employer­
     employee relationship exists berween BBG and the contractors. we recommend that BBG
     develop policies and procedures to ensure IMt it appropriately implements all tax
     requirements lor contractors, including documenting BBG 's working relatiollJhip with its
     contractors.

     BBG Resoonsc: The Broadcasting Board of Governors (BBG) concurs that it will address
     any ttCOmmendalions from the IRS regarding employer lax withholding once the
     examination is concluded.. We IIQ(e, however, thai the IRS raised this issue regardi ng most of
     our independent contractors after receiving misinfonnation from an agency official who did
     not have direct knowledge of the types of services procured by BBG nor the contractual
     relationshlp with certain contractors. Accordingly, we believe the number of contraCtors who
     may be classified as employees for tax purposes is gfClluy exaggerated. We will r.:onLinue to
     work with IRS in the coming year to provide more accurate information so that this issue
     may be resolved.


2.   American PayroU Time and Attendance
     Audit Recommendation: Clarlre Leiper recommends that the Broadc(lj·ting Board of
     Governors strengthen its controls over time and attendance reporting by condll.cting
     timekeeping refresher training/or all personnel responsible lor approving timekeeping
     records (i.e., limelreepers, backup timekeepers, and supervisors) to erl.$ure that time and
     attendance record approvals are documented according 10 the internal control proced.ures
     detailed in the Broadcasting Administranon Manual.

     BBG Resoonse: The BBG has begun strengthening its conuols over time and attendance
     reporting by conducting timekeeping refresher training for personnel responsible for
     timekeeping records (i.e., timekeepers, backup timekeepers, and supervisors). In addition,
     BBG is r.xploring ways to automate time Ilnd attendance, which will also strengthen controls
     over approvals and record keeping.




                                                 10
                                                                                                    Appendix B




3. Infnrmation Security (email sent to Andre and Terry)

   Audit Recommendation: Clnrke u iper reC(JmmLnds that tilt! Broadcasting Board of
   Gollt!m ors implement tilt! "commendations included in Ihe Office of Inspector Cknual's
   Federol lnformotion Security MfJJUJge~nl Act report for FY 1012.

   BBG ResJ)2nse: The BBG concurs that the Agency should implement the recommendations
   included in the OIG F1SMA audit for FY 2012. SecUIe Information Tecbnology (IT)
   systems are vital for safeguarding the broadcast mission of the Agency. All
   recommendations in the subject 010 report are currently being addressed and on schedule for
   implementation. The BBG's Chief lnfonnation Officer (CIO) will oversee the development
   of procedures to ensure that security controls are properly managed and mainlained for all IT
   systems with direct access to the BBG network. The BBG bas increased investments in
   intema1 and offsitc systems to be used for business continuity and the development of
   contingency plans. To support and lead the.-.e critical efforts. the CIO has hired a Disaster
   Recovery and Business Continuity (DRlBC) Manager. The DRlBC Manager has begun
   analpjng tile various IT systems and procedures to gauge the impact on the Agency should
   systems become inoperable or the envllooment becomes unavailable. At this time, both
   additional server and storage systems specifically intended [ 0 provide DRlBC capabilities for
   BBG are on site in Washington. D.C. Upon completion of configuration and testing, the
   systems will be shipped to Prague for installation.

   In tile past several months, the BBO has made substantial progress in addressing many IT
   system~ controls. The BBG has installed, configured, and populated an inventory
   management tool as weI! as establishing policies and workflows for use. has implemented
   change management procedures, has greatly expanded its data backup and retrieval
   processes. bas developed and implemented pohcles and procedures for Plan of Actions and
   Milestones (fOAM), has ensured adherence to password reset polic ie.~ and procedures. has
   brought compliance to end-user participation in mandatory Security Awareness Training.to
   100%, which includes the Office of Cuba Broadcasting (OCB) and has instituted strict
   disciplinary measures for non-compliance, and has reviewed the BBG Incident Response
   Policy to align with guidance from the National Institutc of Standards and Technology
   (NlST).

   The eTO will attempt to strengthen the IT security controls over all Federal BBO elements
   that connect to the BBO's Wide Area Network (WAN). These BBG Federal elements
   include the International Broadcasting Bureau, the Office of Cuba Broadcasting, and the
   Voice of America. At this time. the BBG is circulating foc comments an Agency-wide policy
   that reinforces the role of the CIO in addressing risk management processes and procedures
   as recommended by the NIST. If full compliance cannol be met, compensating controls will
   be put in place to ensure an acceptable risk level for the BBG. The: CIO will continue: to
   assess progress.




                                               11
                                                                                                      Appendix B




4. RecQndliatjop Qf rr.l n ~aclions Recorded in SUl>nen.<;e Accounts

   Audit Recommendation: Clarke Leiper recommends that BBG temporarily focus resources
   on clearing suspense acCOUllt transactions tha.t are more than 60 days old at required by the
   U.S. Dcparrmenr 0/ llu! Treasury.

   BBG Response: Budgeting and resource constraints continue to hamper BBG's ability to
   quickly resolve historicaltrartsactions while main taining critical a.ctivilies 10 ensure smooth
   mission operati ons. A.~ workload allows, BBG will focus resources to reconci le suspen~
   aa;:ount transactions that are more than 60 days old.


5, Financial   R~portin!1;   Procc...s

   Audit Recommendation: Clarke Leiper recommends thal the Broadcasting Boord of
   Governors impiemem processes and controls, including training/or employees, to impro~
   lhe timeliness and aCcu.racy of ilsjinancial reponing process.                     .

   BBG Response: The BBG agrees that vacancies in key positions and the manual process
   hampered our ability to prepare and review the financial statements efficientJy. Howe ver,
   even with these hindrances, the financial statements are accurate and complete. Although the
   report ing team was short-staffed, the team was well-trained and did an admirable job in
   executing the excessively manual process. which enabled BBG to meet the OMS reporting
   deadlines. It should be noted that the dates mentioned within the finding were internal
   agency deadlines and not .s pecifically mandated by law or regulation.

   BBG concurs that the manual, labor·intensive, and time-consumlng hnanc laJ statemen t
   process could be improved through automation and filling key vacanc:ies. BBG has already
   made progress resolving this rmding by successfully upgrading the financial management
   system during October 2012. This oewer version of the system should allow the production
   of the annual financial statements directly from the financial management system with
   increlllied controls and timeliness and eliminate the manual proces~.


6. Contingent Li3bilities

   Audit Recommendation: Clarke Leiper recommends that the Broadcdftjng Boord of
   Govenwrs (BBG) revise its procedures refaud to the posting of transacti()flS related to
   contingmt liabilities. BBG should reduce its liabi/iry once payments are made into the Thrift
   Savings Plan relief accounts and utablish an accOUllts receivable/or pending
   reimbursements from the Judgment Fund.

   BBG ReSPOnse: In accordance wilh accountin g standards, BBG agrees that contingeot
   liabilities should be reduced and the corresponding imputed benefits be recognized (as
   applicable:) when payments bave beeD made 10 the claimants. This recommendation re lates




                                                 12
                                                                                                       Appendix B




   to a particular arrangement for a unique legal case assened against the U.S. Infonnation
   Agency m ore than 2 decades ago, Hnd the payment of tile final rewlulion of those claims
   follow the law applicable at that time. BBG believes the current posting sequencing
   developed for reporting the contingent liabilities for this panicutar case, bener reflects the
   general rules for contingent liabilities arising from litigation that is ultimately paid from the
   Judgment Fund. Accordingly, BBG does not eJlpcct to revise its procedures for reporting this
   particular contingent liability.

   In typical cases where the l udgment Fund paid claimants directly, a federal agency would not
   reduce a contingent liability against a direct appropriation account until it confmns that
   Treasury paid the claimants from tbe ludgment Fund. At the same time, the agency would
   record any imputed benefits. Here, tbe Judgment Fund cannot pay the claimunt's direcUy,
   and $3.8 million in settlement "payments" that were deposited into the TSP accounts of
   claimants came from deposit fund X6276· OIlier F~d£ral Payroll Withholding, Allotm.~ms
   Deposit fund X6276 is not one of BBG's direct appropriation fund symbols. In essence,
   there has been no "outflow" of BBG resources to trigger the liabilities reduction. The
   reimbursement from the ludgment Fund replenishes the negative cash in deposit fund X6276.
   Similar to the payment of claimants directly in typical litigation, the Judgment Fund's
   reimbursement to Fund X6276 should be the lriggering event for reducing contingent
   liabilities and recognizing imputed benefits.


7. Statement of Net Costs Indirect Cost Allocation

   Audit RecollUIlCndation:   Clo.rk~   Leiper recommends thor the Broadcasting Board oj
   GovtmbTS calculate indir~ct   cost allocation ratios bo.s~d on curr~nl ~ar operations.

   BBG Response;: The BBG will review [he current methodology and perform analysis to
   determine the op(imai indirect cost allocation approach for the preparation of the Statement
   of Net Cost.




                                                 13
